GR-50-98-007
U.S. DEPARTMENT OF JUSTICE
 

Audit Report
 
OFFICE OF COMMUNITY ORIENTED POLICING SERVICES 
GRANT TO THE COOK COUNTY, ILLINOIS SHERIFF'S POLICE DEPARTMENT
Award Numbers 95-CC-WX-0018 and 97-CL-WX-0002
Audit Report Number GR-50-98-007
February 6, 1998
 

EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of two
grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented
Policing Services (COPS), to the Cook County, Illinois Sheriff's Police Department
(CCSPD). CCSPD was awarded $975,000 under COPS Accelerated Hiring, Education, and
Deployment (AHEAD) to hire 13 officers, and $750,000 under the supplemental Universal
Hiring Program (UHP) to hire 10 officers. In addition, CCSPD was awarded $10,359,501 under
the Making Officer Redeployment Effective (MORE) program for equipment which would result
in CCSPD and participating local law enforcement agencies redeploying 414 full-time
equivalent (FTE) sworn officers to community policing. Generally, CCSPD was properly
administering the COPS grants. 

- Costs charged to the grants were in accordance with grant requirements. As of
  June 30, 1997, CCSPD had requested about 50.5 percent of allowable costs incurred
  under the COPS AHEAD and UHP supplemental grants. CCSPD had not incurred any costs or
  requested any reimbursements under the COPS MORE award.
- Budgeted funds for police services increased consistently from $34.2 million in
  FY 1994 to $38.4 million in FY 1997, and the number of officers budgeted remained at
  the level established before the first grant was awarded. Further, CCSPD appeared to be
  making a good faith effort to fill officer vacancies in a timely manner.
- Funds provided under the grants were used to enhance CCSPD's community policing
  efforts. The number of officers performing community policing activities increased by the
  number of positions funded under the awards. 
- CCSPD's share of the COPS AHEAD and UHP costs were paid from Cook County's
  Contingency and Special Purpose Account and payment did not affect the level of funds
  already budgeted for law enforcement.

However, our audit disclosed the following deficiencies:

- Actual average entry level officers' salaries and benefits were $39,671, while
  CCSPD's applications showed $48,828 and $52,046 for the AHEAD and supplemental UHP grants,
  respectively. As a result, the grant award to CCSPD was overstated by about $360,329. 
- Neither the Department Initial Report, Annual Officer Progress Reports, nor Annual
  Department Reports were submitted to COPS. Further, one of the nine Financial Status
  Reports was not submitted to the Office of Justice Programs (OJP), while three others were
  submitted late. Also, program costs were inaccurately reported on five of the nine
  Financial Status Reports. 
#####